NO. ___________
SUPREME COURT OF THE UNITED STATES
OCTOBER TERM 2020
ALLA V. STEPANETS
Petitioner,
vs.
UNITED STATES OF AMERICA
Respondent.

MOTION TO PROCEED IN FORMA PAUPERIS
Petitioner, Alla V. Stepanets, asks leave to file the attached petition for a
writ of certiorari without prepayment of costs and to proceed in forma pauperis.
She has been proceeding in forma pauperis, with appointed counsel, throughout the
lower court proceedings, and current counsel is appointed pursuant to the Criminal
Justice Act. A copy of the order appointing counsel is attached.
Respectfully Submitted,
ALLA V. STEPANETS

* Counsel ofRecord

Dated: July 26, 2021

John H. Cunha Jr.*
Attorney Registration No. 223791
Helen Holcomb
Charles Allan Hope
CUNHA & HOLCOMB, P.C.
One State Street, Suite 500
Boston, MA 02109·3507
617·523·4300
cunha@cunhaholcomb.com

Jack Cunha
From:

Sent:

To:

Subject:

CA01 NoticeDocketActivity@ca1.uscourts.gov
Friday, May 28, 2021 3:50 PM
Jack Cunha
19-1471 US v. Stepanets "Clerk Order"

***NOTE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits attorneys of record and
parties in a case (including pro se litigants) to receive one free electronic copy of all documents filed electronically, if
receipt is required by law or directed by the filer. PACER access fees apply to all other users. To avoid later charges,
download a copy of each document during this first viewing.
United States Court of Appeals for the First Circuit
Notice of Docket Activity
The following transaction was entered on 05/28/2021 at 3:46:33 PM Eastern Daylight Time and filed on 05/28/2021
US v. Ste panets
Case Name:
case Number: 19-1471
Document(s): Document(s)

Docket Text:
ORDER appointing counsel. The court appoints Attorney John H. Cunha Jr. for Alla V. Stepanets in 19-1471 nunc pro tune
to May 8, 2019. [19-1471) (KPC)
Notice will be electronically mailed to:
John W. M. Claud
John H. Cunha, Jr.
Ross Brandon Goldman
Charles Allen Hope
David G. Lazarus
Donald Campbell Lockhart
Christopher R. Looney
Jeffrey J. Pyle
Bruce A. Singal
Amanda Masselam Strachan
Notice will not be electronically mailed to:
Advocate Health & Hospitals Corporation
450 W Highway 22
Barrington, IL 60010

1

